Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      JOBS MONITORING   AND
     TECHNICAL  ASSISTANCE:

 States’   and ACF Regional   Offices’
              Perspectives
                           OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative investigations

of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment

by providers. The investigative efforts of 01 lead to criminal convictions, administrative

sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which

investigate and prosecute fraud and patient abuse in the Medicaid program.


               OFFICE OF EVALUATION                    AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. This report was prepared in the Kansas City Regional
Office under the direction of James H. Wolf, Regional Inspector General. Project staff

REGION                                                                    HEADQUARTERS

Hugh Owens, Project Leader                                                Ruth Folchman

Perry A. Seaton                                                           W. Mark Krushat, Ph.D

Hope H. Anderson


For additional copies of this report, please contact the Kansas City Regional Office
at (816) 426-5959.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      JOBS MONITORING   AND
     TECHNICAL  ASSISTANCE:

 States’    and ACF Regional Offices’
               Perspectives




                  J# SERVICE$
             #+                 ~nq


           &w
                                      JUNE    GIBBS BROWN
           ~                          Inspector    General

           ‘s

           %
 #
            % +--                              APRIL 1994
                 >
               ‘*dIla
                                             0EI-07-92-O0381
              EXECUTIVE                            SUMMARY

PURPOSE

To provide an assessment of the Administration     for Children and Families’ (ACF)
monitoring and technical assistance activities for the Job Opportunities and Basic Skills
Training (JOBS) program based on the perspectives of States and ACF regional offices.

BACKGROUND

The Family Support Act of 1988 established the JOBS program for recipients of Aid to
Families with Dependent Children (AFDC) payments. This program is designed to assist
welfare recipients to become self-sufficient through training, education, work experience,
and support services. The ACF administers the JOBS program through its Headquarters
and 10 regional offices. In this role, they monitor and provide technical assistance to
States.

We reviewed ACF’S monitoring and technical assistance activities for the JOBS program
in three phases. First, we examined ACF Headquarters’ activities. Then we contacted
ACF regional office staff and representatives of 10 States to obtain their perspectives and
other information about their operations. The report on Headquarters’ activities “JOBS
Monitoring and Technical Assistance: Headquarters Role, ” (OEI-07-92-00380) was issued
August 1993. This report contains a synthesis of regional office and State perspectives.

FINDINGS

Since completing our Headquarters report we note substantial progress in some areas such
as timely release of field review guides. States were also complimentary about
contributions made by ACF regional office specialists. However, additional improvements
are needed, particularly in the areas of technical assistance and management information.
We hope this report will be useful to ACF in preparing their response as well as their
implementation plan for all of the recommendations previously made. Following is a
summary of our findings.

Monitoring - Release of field review guides to regions has been more timely, which has
assisted them in their work planning activities. However, the regions’ diverse methods
for sharing field review information has had an adverse impact on its usefulness to States.

States consider on-site visits to be usefid, although they prefer that the visits be better
structured. They consider the regional office State specialist position beneficial. Both
States and the regional offices feel these specialists need to visit States more frequently to
keep abreast of what is going on in their JOBS programs.

Technical Assistance - Many States believe ACF is not meeting their technical assistance
needs. Conversely, Headquarters and the regions believe they are attempting to meet


                                               i
most of them. The States prefer establishment of “technology transfer” over the use of
technical assistance contractors. Neither the regions nor the States considered the
technical assistance provided by the contractors to be very useful.

Program Guidance - States believe the regions are generally responsive to their policy
questions, while Headquarters takes too long to respond. States need policy and
operational instructions much earlier so they can implement their own policy and computer
system changes in a timely manner.

Management Inforrnti”on - States question the usefulness of the data being collected since
they receive little feedback from ACF on the analysis of this information. Neither the
States nor the regions believe ACF is adequately validating the data.




                                            ii
                     TABLE                 OF         CONTENTS




EXECUTIVE SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3


  � MONITORING            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


        � Field Review Guides . . . . . . . . . .         .   .   .   .   .   .   .   .   .   .   .   . . . . . . . .   . . . ...3

        � Field Review Reports . . . . . . . . .          .   .   .   .   .   .   .   .   .   .   .   . . . . . . . .   . . . ...3

        � On-site Visits . . . . . . . . . . . . . .      .   .   .   .   .   .   .   .   .   .   .   ..OO. . . .       ..0<.03

        � Regional Office State Specialist . . .          .   .   .   .   .   .   .   .   .   .   .   . . . . . . . .   . . . ...4


  � TECHNICAL         ASSISTANCE          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4



        � Technical Assistance Needs. . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4

        � Technical Assistance Contractor . . . . . . . . . . . . . . . . . . . . . . . . . ...4


  � PROGRAMGUIDANCE.                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


  � MANAGEMENT             INFORMATION            . . . . . . . . . . . . . . . . . . . . . . . . . . ...5



CONCLUSIONS            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...-...””                                    “6


APPENDICES


A: PERSPECTIVES OF STATE OFFICIALS . . . . . . . . . . . . . . . . . . . . . . A-1


B: PERSPECTIVES OF ACF REGIONAL OFFICES . . . . . . . . . . . . . . . . . . B-1

                          INTRODUCTION

PURPOSE

To provide an assessment of the Administration for Children and Families’ (ACF)
monitoring and technical assistance activities for the Job Opportunities and Basic Skills
Training (JOBS) program based on the perspectives of States and ACF regioml offices.

BACKGROUND

The Family Support Act of 1988 established the JOBS program for recipients of Aid to
Families with Dependent Children (AFDC) payments. This program is designed to assist
welfare recipients to become self-sufficient through training, education, work experience,
and support services. The ACF administers the JOBS program through its Headquarters
and 10 regional offices. In this role, they monitor and provide technical assistance to
States.

METHODOLOGY

In recognition of the differing roles and responsibilities of ACF Headquarters and regional
office components, we reviewed the JOBS program in three phases. We did this to more
accurately reflect the overall performance of each component in providing monitoring and
technical assistance for the JOBS program and to obtain the States’ observations and
perspectives concerning this performance.

In phase one, we reviewed the statute, written policies, processes, and products developed
by ACF Headquarters for monitoring and providing technical assistance in the JOBS
program. We conducted an on-site visit at ACF Headquarters and interviewed members
of the agency’s staff responsible for the following key areas: field reviews, on-site visits,
State plans, data collection, and the technical assistance contract. We also interviewed
members of Washington, D. C. -based advocacy organizations that have an active interest
in the JOBS program. The results are presented in our report entitled “JOBS Monitoring
and Technical Assistance: Headquarters Role, ” (OEI-07-92-O0380) issued August 1993.

In phase two, (Regional Offices’ Perspectives), we examined ACF’s program instructions
and regional offices’ documentation, including policies, directives, memoranda, telephone
contacts, on-site visit reports, States’ report summaries, and other instructions used in the
region or disseminated to States. We interviewed management and operational staff in the
10 regional offices that administer the JOBS program.

In phase three, (States’ Perspectives), we examined States’ program documentation,
including regional policies, directives, memoranda, telephone contacts, on-site visit
reports, program report summaries, and other materials used by them or created to
summarize their JOBS program activities. We interviewed program staff in 10 States,
9 of which were selected because they are the State in which the ACF regional office is


                                              1
located. In Region VII, Kansas City, we selected Nebraska, since we had previously
contacted Missouri as part of our preinspection research.

Upon completion of the Headquarters’ review, ACF requested that we delay action on our
report findings and recommendations related to monitoring activities until we had
completed our review of the regional offices and States. We agreed. We have now
completed the remaining phases of the study. This report contains the synthesis of what
we found, as well as the Regional offices’ and States’ perspectives of ACF’s monitoring
and technical assistance efforts.

We conducted our review in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                           2
                                  FINDINGS

We are providing here a synthesis of our findings covering the regional offices’ and
States’ perspectives conceding ACF'smonitoring, tectical assistance, program guidance
and management information activities. More in-depth information is contained in the
Appendices A and B of this report.

MONITORING

Field Review Guides

The ACF regional offices noted great improvement in the release of the 1993 and
1994 field review guides as compared to earlier years. However, they prefer that
Headquarters release the guides even earlier.

Seven offices would like to receive these guides in the first quarter of the fiscal year. The
remainder would prefer to receive the guides before the start of the fiscal year, preferably
in July or August. All regions believe that releasing the guides earlier would assist them
in their work planning and strategic planning process.

Field Review Repotis

For many States, ACF regional office diversity in methods for sharing field review
information has adversely impacted on the timeliness and usefulness of this material.

States report that regional offices use diverse methods for releasing field review reports,
for soliciting their comments, and for following up on their corrective actions to report
findings and recommendations. Our review of ACF Headquarters supports that it has not
established national guidelines for the dissemination of reports, for soliciting States
comments, and for conducting follow-up. The review of regional offices also confirmed
that they have diverse methodologies for carrying out these fimctions.

On-site Visits

Most States found the regional office on-site visits to be beneficial. However, they
prefer that these visits be more systematically planned and be conducted more
frequently.

Both States and regional offices consider on-site visits a useful tool for monitoring, for
offering assistance to States, for follow-up, and for educating their staff. States also see
these visits as valuable in establishing good working relationships with the regional office
staff.

The frequency of these visits varies, due mainly to limited funding and the distance from
the regional offices to the States’ capitals. States prefer more regular and frequent visits.


                                               3
Regional Office State Specialist

Many regions and States consider the regional office State specialist position as vital
to ensure good relations.

All regional offices have assigned State specialists who are the primary contact with the
States. They consider the specialists to be field-oriented positions. Further, they believe
that the specialists need to be out in the States to know what is going on in the JOBS
programs.

TECHNICAL ASSISTANCE

Technical Assistance Needs

Some States believe that ACF is not consistently meeting their technical assistance
needs.

Six States believe that their technical assistance needs are not being met or are only
somewhat being met by ACF Headquarters and regional offices. The remaining four
States believed that ACF was meeting their technical assistance needs. ACF Headquarters
believes they are attempting to meet most of the States’ technical assistance needs,
primarily through the training and materials provided by the technical assistance
contractors. Most regional offices also believe they are attempting to satisfy most of the
States’ needs and consider themselves to be the primary source for providing this
assistance.

Technical Assistance Contractor

Regional offices and States believe that the technical assistance contractors’ training
was not useful.

All regional offices and seven States stated that the technical assistance contractors’
training was not useful. Nine States favor the use of “technology transfer” to meet their
training needs. This method provides partial Federal funding to facilitate cross-State
training with States that are using innovative and successful program approaches. We
found in the Headquarters’ review that the full potential of the technical assistance
contractors was not realized. All regional offices commented that the contractors’ training
was not timely or appropriate for States’ needs.




                                              4
PROGRAM GUIDANCE

Most States believe that the regional offices are responsive to policy questions.
However, they believe that problems remain with the timeliness of Headquarters’
responses and in the release and timing for regional office interim responses.

All regions believe that Headquarters’ responsiveness to policy issues is problematic,
particularly as related to providing interim status updates for these issues. While most
regions provide timely responses to States’ questions, they vary in the method and timing
for release of interim responses, especially for issues submitted to Headquarters for their
review.

Most States believe that ACF has not issued action transmittals timely. As a result, States
do not have adequate time to implement the needed policy and computer system changes.

In the Headquarters’ review, we found that ACF did not allow sufficient lead time for
States’ implementation of action transmittals, particularly those related to computer
systems and data reporting. In some cases, States were required to retroactively capture
and report data.

Regional offices noted that Headquarters’ program instructions are improving. However,
they believe that instructions related to data collection and some policy areas need to be
released earlier to allow States time to plan and implement the changes.

MANAGEMENT INFORMATION

All regional offices and States commented that they receive little feedback from ACF
Headquarters on the analysis of States’ data. Therefore, they question the usefulness
of the data being collected.

Most regions believe they are not adequately validating States’ data and computer systems
for accuracy and consistency. Although validation of data is required as part of the field
review process, most regions believe that efforts to do so are not adequate. In addition,
both regions and States commented that ACF has not routinely disseminated management
information in a usefid format to those who need it.

Most regions are adopting varied and innovative approaches for data analysis to enhance
their monitoring, technical assistance, and consultative functions with States. However,
they believe that lack of Headquarters’ guidance, access to data, and standardization of
analysis techniques is impeding their efforts.




                                              5
                                 CONCLUSIONS

As noted earlier, ACFasked iftieycould delay responding totiemotitoring       section of
our Headquarters’ report until we completed our review of regional offices and States.
We agreed.

Now that our activities are concluded, we are pleased to note that real progress has been
made in some areas, particularly in the more timely release of field review guides and
protocols. Nevertheless, our State and regional respondents confirm the need for
additional improvements. We therefore look forward to ACF’S response to the earlier
findings and recommendations on monitoring, which were published in our report on
Headquarters activities. We hope these reports will be useful to ACF in preparing their
response as well as their implementation plan for all of the recommendations previously
made.

Our respondents have also raised concerns about additional matters, particularly related to
technical assistance and management information. We hope ACF will address these
concerns as well in their response.




                                             6
                              APPENDIX                    A
                    PERSPECT~S             OF STAZl!lOFFICIALS

The following is a catalogue of the perspectives and observations of staff from 10 States’
staffs who are involved in the operation and administration of the JOBS program. We
summarized the States’ comments to reflect the general tone of the issues voiced during
our review.

MONITORING

FIELD REVIEWS

States believe that field report information is of maximum usefulness when it is
disseminated no later than 90 days following the review. They experience difficulty
in developing and implementing corrective action plans when report recommendations
are not issued in a timely manner.

States described the varied processes ACF uses to share the results of field review
activity. These methods are shown in Table 1.

                                           Table 1

                         Method of sharing draft report findings
                           and recommendations with States

       Method used                                                  Number of States

       Informal sharing of findings and

       recommendations--no draft report disseminated                            2


       Draft report disseminated                                                5


       No informal sharing--no draft report

       disseminated                                                             3


All States confirmed that regional offices are routinely conducting exit conferences at the
conclusion of the field review. Nevertheless, they believe that delays in disseminating
field review reports adversely affects their ability to utilize the information to improve the
operation of the JOBS program. This is particularly true where expenditures of States’
funds are involved and where they disagree with the information provided during the exit
conference. The elapsed times for States’ receipt of these reports are shown in Table 2
for Fiscal Years (FY’s) 1990-1992.




                                             A-1

                                          Table 2


                          Elapsed time from the field review to

                               States’ receipt of the report

                                   for FY’s 1990-1992


       Elapsed time from the field review                          Number of States

       3 months or less                                                        5
       6- 12 months                                                            2
       Over 1 year                                                             3

To be of maximum usefulness,    all States favor report findings and recommendations be
shared as part of an exit conference which is followed by a written report that is
distributed no later than 90 days following the review. States’ preference for receipt of
these reports are shown in Table 3.

                                          Table 3

                               States’ preference for receipt
                                 of the field review report

       Elapsed time from the field review                          Number of States

       Within 30 days                                                          3
       Within 60 days                                                          3
       Within 90 days                                                          4

States report that regional offices use varied methods to disseminate field review reports.
In addition, States note that regional offices differ in the methods used to obtain their
comments to draft and final reports (see Table 4).




                                            A-2

                                          Table 4

                       Methods for obtaining States’ comments to
                                  field review reports

      Draft report methods used                                    Number of States

       Informal sharing of findings

       and recommendations through a visit

       or a telephone call--no formal

       comment period. 1                                                        2


       Comment period provided 2                                                5


       No informal sharing--no comment period

       provided.                                                                 3


       Final report methods used                                    Number of States

       Comment period provided 12                                               9


       No informal sharing--no comment period

       provided.                                                                1


       1	 Tworegional offices donotformally solicit S@tes’ comments to the
          draft report, butdoprovide aformal comment period fortiefinal  repoti.

       2	 Five regional offices provide comment periods for both draft and
          final reports.

States report a variance in regional offices’ notification of issues needing corrective action
and their follow-up activity. While eight States believe that regional offices responses to
their corrective action plans are good, the remaining two States are not notified of items
needing corrective action and have not been involved in regional office follow-up
activities.

ON-SITE VISITS

Most States believe that on-site visits by regional office staff are beneficial.      While all
States receive these visits, the frequency varies.

States reported a variance in the frequency of regional office on-site visits as shown in
Table 5. All States receive at least one annual visit, while some receive more than
four visits per year, in addition to scheduled field reviews.




                                             A-3

                                           Table 5

                         Frequency of regional office on-site visits

       Frequency                                             Number of States

       4 or more visits per year 1                                          6
       2 visits per year                                                    1
       1 visit per year                                                     3

       1	 These States are located in proximity to the regional office. However,
          we found that regions travel to remote portions of these States and to
          other States less frequently due to limited travel funds.

Eight States consider regional on-site visits to be beneficial. All of these receive either
formal or informal feedback summarizing on-site visit issues.

REGIONAL OFFICE STATE SPECIALIST

Many States consider the regional office State specialist position as vital to ensure
good relations.

Six States rated the State specialist as effective, while three States characterized the
specialist as improving. Only one State considered the specialist to be ineffective.

States that rated their specialist as effective or improving listed the following traits as
desirable for a good State specialist:

  �    openness

   �   helpfulness

   �   accessibility

   �   responsiveness

   �   knowledgeable about the State’s program

   �   serves as an information resource

   �   sometimes acts as the State’s advocate


Only one State rated the State specialist as ineffective. This State received only one
on-site visit per year (Table 5). They commented that the specialist’s visits were not well
planned and he did not provide visit summaries.




                                              A-4

TECHNICAL ASSISTANCE

TECHNICAL ASSISTANCE NEEDS

Some States perceive that ACF is not consistently meeting their technical assistance
needs.

Six States believed that their technical assistance needs are not being met or are only
somewhat being met by ACF Headquarters and regional offices. The remaining
four States believed that ACF was meeting their technical assistance needs.

TECHNICAL ASSISTANCE CONTMCTOR

Many States believe that the technical assistance contractor training was not useful.

Seven States asserted that the contractor training was not useful or practical for their
program. Several commented that the major benefit from the technical assistance
conferences (workshops) was the ability to informally discuss issues (network) with staff
from other States.

Most States favor use of “technology transfer” rather than a technical assistance
contract to meet their training needs.

Nine States commented that they would like ACF to establish and fund a “technology
transfer” among States. This concept, which previously existed under AFDC, enabled
State staffs to travel to other States having the expertise to meet their specific training
needs.

The one State not supporting this concept expressed concern about limited State funds
available to pay for interstate training. In addition, they were concerned about the loss of
their employees’ services during the training period.

Most States believe that regional offices are responsive to their policy questions.
However, they believe that problems remain with the timeliness of Headquarters’
responses and in the release and timing for regional office interim responses.

Nine States commented that regional offices are responsive to their policy needs.
However, six of these States believe that Headquarters has not provided timely responses
to their questions, many of which had far reaching policy or budget implications.

Nine States commented that the ideal regional office’s response time for a policy question
is 30 days or less. The remaining State felt that a response within 60 days would meet its
needs. Seven commented that the ideal Headquarters’ response time for a policy question
was 60 days or less. Four of these would prefer a response within 30 days or less.




                                             A-5

Five Swtesprovided the following examples ofdelayed Headquatiers' responsiveness to
policy issues:

  �	   A question regarding work supplementation. Submitted inthe Fall of 1992, they
       received an answer in June 1993 (no interim response issued by the regional
       office).

  �	   A question concerning the use of Housing and Urban Development funding for
       Community Development Block Grants as Federal matching funds for JOBS--the
       response took seven months.

  �	   A question on whether unemployed parents and 16-17 year old AFDC youth can
       be included in the definition and calculation of target groups. The State submitted
       the question in March 1992, no response received (as of July 1993).

  �	   A request to change the definition of a target group from being on assistance
       36 out of the last 60 months to being on assistance 24 out of the last 60 months.
       The request was submitted in September 1990. They received the response in
       July 1992. The State expressed some displeasure with the lateness of an answer,
       since the issue had an impact on State budget and policy.

  �	   A question concerning_whether the JOBS program can pay for child care in
       facilities that provide -&ligious instruction-was submitted in 1988. The State has
       not received a formal written response from Headquarters. While they did get an
       informal (verbal) response from the regional office, the State does not consider this
       to be an official answer to their question.

PROGRAM GUIDANCE

Most States believe that ACF has not issued action transmittals in a timely manner to
allow them adequate time to implement the needed policy and computer system
changes.

Nine States commented that action transmittals, particularly in the area of data reporting,
have not been released with enough lead time to allow States to implement the needed
changes to policy and computer systems. They believe that problems remain, particularly
as related to the issuance of policy on the changes to the unemployed parent program
which was effective on October 1, 1993. As of November 1993, States had not received
final policies and reporting instructions for these changes.

States vary widely in the amount of advance notice needed to implement policy changes.
They commented that they need adequate advance notification to plan and implement these
changes, to train staff, and to issue their policy and regulations. States’ preferences for
this notification are shown in Table 6.




                                            A-6

                                         Table 6

                       States’ preference for advance notification
                                    of policy changes

       Time frame                                                Number of States

       2 months                                                              1
       3 months                                                              1
       6 months                                                              4
       9 months                                                              1
       Over 1 year                                                           2
       Depends on the nature and extent of the change                        1

States also vary widely in the amount of advance notice needed to implement computer
system changes. They commented that they need adequate advance notification to plan,
implement these changes, and to train staff. Their preferences for this notification are
shown in Table 7.

                                          Table 7

                       States’ preferences for advance notification
                                   of computer changes

       Time frame                                                 Number of States

       2 months 1
                                                           1
       3 months
                                                             3
       6 months 2
                                                           1
       9 months
                                                             1
       12 months 12
                                                         2
       Over 1 year
                                                          3
       Depends on the nature and extent of the change
                       1

       1	 This State believed that two months was adequate for minor changes
          but that 12 months would be needed for major changes. The State is
          listed for both time frames.

       2	 This State believed that six months was adequate for minor changes
          but that 12 months would be needed for major changes. The State is
          listed for both time frames.




                                            A-7

MANAGEMENT INFORMATION

All States commented that they receive little feedback from ACF on the analysis of
States’ data. They question the usefulness of the data being collected.

None of the States are receiving analysis of data beyond the recipient participation and
target group rates. They have not received an ACF analysis of the JOBS Program
Participant Data Collection Form FSA-108 data,




                                            A-8

                             APPENDIX                  B
               PERSPECT~S           OF ACF REGIONAL Ol?FICES

The following is a catalogue of the perspectives and observations of staff from 10 ACF
regional offices who are involved in the administration and oversight of the JOBS
program. We summarized the regional office comments to reflect the general tone of the
issues voiced during our review.

MONITORING

FIELD REVIEW GUIDES

The regional offices noted great improvement in the release of the 1993 and 1994 field
review guides as compared to earlier years. However, they prefer that Headquarters
release the guides even earlier. Most offices would like to receive these guides in the
first quarter of the fiscal year.

The regions received the final review guides for FYs 1992, 1993, and 1994 in June 1992,
February 1993, and October 1993, respectively. The regions noted that the 1994 guides
were essentially a reissuance of the 1993 documents. Most believe that the timing for the
guide release has improved considerably over this three year period. Table 1 summarizes
regional offices’ responses concerning the impact of the 1992 and 1993 guides on their
office operations.

                                         Table 1

                   Impact of the release of the 1992 and 1993 guides
                             on regional office operations

                                                               Number of regions
       Response                                                FY 1992 FY 1993

       Adverse impact
                                             7           2
       No adverse impact
                                          2           8
       New staff not involved in FY 1992 review
                   1



Regions reporting an adverse impact commented that the late release of these guides
resulted in delaying field reviews until the last three months of the fiscal year. This
created a burden for them in terms of workload and a time “crunch” for completing the
reviews during the year. Several regions noted that guides should be released before the
fiscal year or in the first quarter of the fiscal year as shown in Table 2.




                                           B-1

                                            Table 2

                          Regional offices’ ideal time frames for
                              receipt of field review guides

       Time frame                                                 Number of regions

       Before start of the fiscal year 1                                       3
       In the first quarter of the fiscal year 2                               7

       1	 Three regions prefer to receive the guides before the start of the fiscal
          year, preferably in July or August.

       2	 Three of these regions would like to have a working draft of the guide
          by August or September

All regions believe that releasing the guides earlier would assist them in their work
planning as well as their strategic planning process.

FIELD REVIEW REPORTS

The regions use different methods to share report information with States and to
obtain comments on draft and final reports.

Table 3 summarizes the various methods used to disseminate this information.

                                            Table 3

                            Methods of sharing report findings
                            and recommendations with States

       Methods used                                               Number of regions

       Informal sharing of findings
       and recommendations--no draft report disseminated                       2

       Draft reports disseminated                                              5

       No informal sharing--no draft report
       disseminated                                                            3

Regions also report using diverse methods to obtain States’ comments on draft and final
reports. This is shown in Table 4.




                                              B-2

                                         Table 4

                      Methods for obtaining States’ commentson
                                 field review reports

      Draft report methods used                                 Number of regions

      Informal sharing of findings and
      recommendations through a visit
      or a telephone call--no formal
      comment period 1                                                      2

      Comment period provided 2                                             5

      No comment period provided                                            3

      Final report methods used                                 Number of regions

       Comment period provided 12                                           9

       No comment period provided                                           1

       1	 Two regional offices do not formally solicit States’ comments to the
          draft report, but do provide a formal comment period for the final
          report.

       2	 Five regional offices provide comment periods for both the draft and
          the final reports.

ON-SITE VISITS

All regions consider on-site visits to be a useful tool for monitoring, offering
assistance to States, for follow-up, and for educating their staff.

The frequency of regional office on-site visits varies, due mainly to limited funding and
distances from the regional offices to the States’ capitals. Table 5 provides a summary of
the frequency of these visits.




                                           B-3

                                          Table 5

                            Frequency of annual on-site visits

      Number of              Frequency of visits           Frequency of visits
      regional offices       to “close States” 1           to “distant States” 2

       1                     Weekly to Monthly             Less than annual

       1                     Bimonthly                     NIA

       1                     Bimonthly                     Less than annual

       2                     Quarterly                     Quarterly

       1                     Quarterly                     Semiannually

       1                     Quarterly                     None performed

       1                     Three to five                 Three to five

       2                     Annually                      Less than annual


       1	 “Close States” are defined as being within one days travel,
          no overnight stay required to conduct a visit.

       2	 “Distant States” are defined as requiring an overnight stay
          by regional office staff to conduct a visit. An N/A designates
          that the region(s) have no States where an overnight stay would
          be required.

REGIONAL OFFICE STATE SPECIALIST

All regional offices have assigned State specialists who are the primary contact with
the States for the JOBS program. They consider the specialists to be field-oriented
positions.

The regional offices believe that the specialists have to be out in their States to know what
is going on in the JOBS programs. Regions commented that limited travel fi.mds are
impeding specialists from making periodic visits during the year.

TECHNICAL       ASSISTANCE

TECHNICAL ASSISTANCE NEEDS

Regional offices commented that they are the primary source for addressing States’
technical assistance needs. Eight out of ten believe they are addressing these needs.
The remaining regions are not providing technical assistance.

Regional offices believe that technical assistance is an important activity. The primary
sources of information for six of the regions are field reviews and staff contacts. The
other four regions found that surveys of States and staff contacts are the most usefd for
them in identifying technical assistance needs.


                                            B-4

Despite regional offices’ efforts, they believe that States continue to have significant
technical assistance needs (see Table 6).

                                           Table 6

                              Regional office views regarding
                             States’ technical assistance needs

       Technical assistance needs                                 Number of regions 1

       Understanding legislation, regulations and policy                        6
       Data collectionheporting                                                 4
       Goal setting and component effectiveness                                 3
       Unemployed parents program                                               3
       Computer systems development                                             2
       Facilitating the exchange of information with other States               2
       Participation rates, target groups, and teen parents                     2
       Simplifying funding streams/budget issues                                2
       Better coordination among Federal agencies                               1
       Child care issues                                                        1
       Market rate survey                                                       1
       Orientation of new States’ JOBS program managers                         1
       Writing a good contract                                                  1

       1 All regional offices listed multiple technical assistance needs

Examples of how regions are providing or sponsoring technical assistance to States

       One region assisted a State whose legislature wanted information on the
       effectiveness of jobs search as a component of the JOBS program. The region
       obtained a study that showed job search was cost effective over the short term.
       However, it was not as effective as education and training programs over the long
       term.

       Through its monitoring effort, one region brought State JOBS directors and ACF
       Headquarters’ staff together. The ACF staff provided definitions for terms used in
       data collection.

       One region’s planning process will identify five items the individual States need in
       the coming year. Some of these are common to other States in the region. Others
       will be specific to individual States.




                                             B-5

TECHNICAL ASSISTANCE CONTRACTOR

All regions reported that the contractors’ assistance to States during program
implementation was not timely or appropriate. Only three judged the technical
assistance contractors’ training materials and workshops as being useful to States.

All regions are concerned with Headquarters’ response times to States’ policy questions.

Regions report a wide variance in the timeliness of Headquarters’ responses to States’
policy questions as shown in Table 7.

                                           Table 7

                   Regions reporting of Headquarters’ response times
                              for States’ policy questions

       Response time ranges                                     Number of regions

       30 days to several months
                                           3
       30 to 45 days
                                                       1
       60 days or less
                                                     1
       90 days
                                                             1
       90 to 120 days
                                                      1
       4 to 6 weeks
                                                        1
       4 to 6 months
                                                       1
       4 to 8 months
                                                       1

A majority of the regions generally prefer a 30 day time frame as the outside limit for a
response from Headquarters (see Table 8).

                                           Table 8

                 Regions’ preference for Headquarters’ response times
                               to States’ policy questions

       Response times                                           Number of regions

       Not to exceed 30 days 1                                               7
       30 to 60 days                                                         2
       45 to 60 days (closer to 45 days)                                     1

        1	 One region commented that a continuing dialogue (no time expressed)
           is needed between the region and Headquarters if the response will
           take a relatively long time.




                                             B-6

Regions report use of diverse methods and time frames for releasing interim
responses to questions from States.

The regions vary in the methods and timing for providing interim responses to States (see
Table 9).

                                           Table 9

                Methods and time frames for issuing interim responses

       Method                                                    Number of regions

       Interim response if final reply will take a

       long time (period not defined)                                       4


       Interim response by telephone when referred

       to Headquarters, no subsequent reply will be issued                   1


       Interim responses every 30 days                                       1


       Respond verbally or in writing (period not defined)                   1


       Periodic telephone follow-up with Headquarters

       and furnish update to State (period not defined)                      2


       30 day telephone follow-up with Headquarters       and

       Ii,umish update to State                                              1


PROGRAM GUIDANCE

All regions believe that Headquarters’ program instructions are improving.
However, material related to data collection and some policy areas could be more
timely.

Five regions commented that the lack of timeliness of instructions pertaining to data
reporting and systems resulted in States having to collect and report the information
retroactively. States agreed that these instructional delays made it difficult, if not
impossible, to collect and report the needed information since their information systems
were not set up to capture this data.




                                             B-7

MANAGEMENT INFORMATION

Most regions believe they are not adequately validating States’ data and computer
systems for accuracy and consistency, despite the required validation performed as
part of the field review process.

All regions are validating tie data on the JOBS Program Participant Data Collection Form
FSA-108, which is a requirement under the field review process. However, seven regions
believed that this validation is not adequate to assure accurate State data.

Most regions report use of varied and innovative approaches for data analysis to
enhance their monitoring, technical assistance and consultative functions with States.
However, they believe that lack of Headquarters’ guidance, access to data, and
standardization of analysis techniques is impeding their efforts.

While eight regions are performing limited analysis of States’ data, they believe this role
is not adequately supported by ACF Headquarters. Nine regions believe that
Headquarters should provide greater access to States’ data, and assist them in its analysis.




                                            B-8

